0-1321

INAL
—FILED
MAR 0 8 2021

IN THE SUPREME COURT OF THE UNITED STATES

^^^theclerk

JOHN CHING EN LEE,
Petitioner
v.

UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

John Ching En Lee
Pro Se Petitioner
1750 Toyon Drive
Concord, CA 94520
(415) 819-3635
shuehuapiao@hotmail.com

QUESTIONS PRESENTED

1.

Whether Petitioner is entitled to a Certificate of Appealability since he has

made a substantial showing that he was denied Due Process under the Due Process
Clause of the Constitution, because the Government did not prove beyond a
reasonable doubt the elements of Falsity, Intent, Materiality, required for
conviction under 18 USC 1001.

2.

Whether Petitioner is entitled to a Certificate of Appealability since he has

made a substantial showing that he was denied Effective Assistance of Counsel
under the Sixth Amendment to the Constitution because Trial Counsel’s improper
stipulation to Jury Instruction was based on arbitrary and contradictory evidence.

3.

Whether Petitioner’s 2255 Motion presents an exception to the Law of the

Case Doctrine because the conviction is clearly erroneous and its enforcement would
work a manifest injustice.

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

n

TABLE OF CONTENTS....
TABLE OF AUTHORITIES.

in

OPINIONS BELOW

1-2

JURISDICTIONAL STATEMENT

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

2-4

STATEMENT OF THE CASE AND FACTS

4-6

REASONS FOR GRANTING THE PETITION

6

CONCLUSION

19

,1V

INDEX OF APPENDICES
APPENDIX A

Verdict of the United States District Court for the Northern
District of California (June 30, 2016).

APPENDIX B

Order of the United States District Court for the Northern
District of California acquitting Petitioner of Count 2 but
affirming Count 1 after a Rule 29 Motion (September 20, 2016).

APPENDIX C

Order of the United States Court of Appeals for the Ninth
Circuit denying appeal (June 6, 2018).

APPENDIX D

Order of the United States Supreme Court denying Petition for
a Writ of Certiorari (February 19, 2019).

APPENDIX E

Order of the United States District Court for the Northern
District of California denying Motion to Amend the 2255 Motion,
denying the 2255 Motion itself, and declining to issue a
Certificate of Appealability (August 28, 2019).

APPENDIX F

Order of the United States Court of Appeals for the Ninth
Circuit denying a Certificate of Appealability (December 14,
2020).

APPENDIX G

Order of the United States Court of Appeals for the Ninth
Circuit denying Motion for Reconsideration of the denial of a
Certificate of Appealability (January 14, 2021).

iii

TABLE OF AUTHORITIES
Page
CASES
Andres v, United States, 333 U.S. 740, 748 (1948)

16

Boyde v. California, 494 U.S. 370, 380 (1990).......

16

Gonzalez v. Arizona, 677 F.3s 383 (9th Cir. 2012)(en banc)....17,19
In re Winship, 397 U.S. 358, 364 (1970).................

7,14

Kungys v. United States, 485 U.S. 759, 770 (1988)

10

Miller-El v. Cockrell, 537 U.S. 322 (2003)..............

6,19

Sanders v. United States, 373, U.S. 1 (1963)..........

18

Strickland v. Washington, 466 U.S. 668 (1984)......

11,15

United states v. Gaudin, 515 U.S. 506,509 (1995)..

10

United States v. Jiang, 476 F.3s 1026, 1030 (9th Cir. 2007).... 15
United States v. Jingles, 702 F.3d 494 (9th Cir. 2012)

17

STATUTES
18 USC 1001(a)...............................................................

3

28 USC 1254(1)...............................................................

2

28 USC 2241...................................................................

3

28 USC 2253(c)(2)...........................................................

,4

28 USC 2255(a)...............................................................

4

UNITED STATES CONSTITUTION
United States Constitution Fifth Amendment............

2

United States Constitution Sixth Amendment

2

United States Constitution Fourteenth Amendment

3

iv

OPINIONS BELOW
The United States District Court for the Northern District of California
convicted Petitioner of 18 USC 1001 after a jury trial on June 30, 2016. United
States v. John Ching En Lee, 3:15 CR-00541-SI, Appendix A. Petitioner timely filed
a Rule 29 motion and the District Court on September 20, 2016, acquitted
Petitioner on Count 2 but affirmed Count 1. United States v. John Ching En Lee,
3:15 CR-00541-SI, Dkt. No. 136, Appendix B. A direct appeal was then filed with
the United States Court of Appeals for the Ninth Circuit and the appeal was denied
on June 6, 2018. United States v. John Ching En Lee, 726 F. App’x 589, 590 (9th
Cir. 2018), Appendix C. A Petition for Writ of Certiorari was filed with the
Supreme Court of the United States on November 19, 2018, and the petition was
denied on February 19, 2019. John Ching En Lee v. United States, 139 S. Ct.1169,
Docket Number 18-597, Appendix D.
A Rtde 2255 motion was filed with the United States District Court for the
Northern District of California on October 10, 2018, and Petitioner also filed a
motion to amend the 2255 motion on May 16, 2019. The District Court denied the
motion to amend, denied the 2255 motion itself, and declined to issue a Certificate
of Appealability on August 28, 2019. United States v. John Ching En Lee, 3:15-CR00541-SI/18-CV-06223-SI, Dkt. Nos. 164, 165, 183, 188, Appendix E. Petitioner
timely filed a Notice of Appeal seeking a Certificate of Appealability. On December
14, 2020, the United States Court of Appeals for the Ninth Circuit issued an order
of two Circuit Judges denying a Certificate of Appealability. United States v. John

1

Ching En Lee, NO. 19 -16745, Docket Entry No. 2, Appendix F. Petitioner timely
filed a Motion to Reconsider and the motion was denied on January 14, 2021.
United States v. John Ching En Lee, No. 19 -16745, Docket Entry No. 4, Appendix
G.
JURISDICTIONAL STATEMENT
The United States Court of Appeals for the Ninth Circuit affirmed the denial of
Petitioner’s application for a Certificate of Appealability on December 14, 2020.
Petitioner’s Motion for Reconsideration was denied on January 14, 2021. This
Court has jurisdiction under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISION
The Fifth Amendment to the United States Constitution provides:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be
taken for public use, without just compensation.
The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the
right to a public and speedy trial, by an impartial jury of
the state and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, to be informed of the nature and
cause of the accusation; to be confronted with the witness
against him; to have compulsory of process for obtaining
witnesses in his favor, and to have assistance of counsel
for his defense.
2

Section One of the Fourteenth Amendment to the United States
Constitution provides:
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.
18 USC 1001(a) provides in relevant part that: Except otherwise as provided
in this section, whoever, in any matter within the jurisdiction of the executive,
legislative, or judicial branch of the Government of the United States,
knowingly and willfully(1) falsifies, conceals, or covers up by any trick, scheme, or
device, a material fact;
(2) makes any materially false, fictitious, or fraudulent statement or
representation; or
(3) make or use any false writing or document knowing the same to
contain materially false, fictitious, or fraudulent statement of entry;
Shall be fined under this title, imprisoned not more than 5 years or, if
the offense involves international or domestic terrorism (as defined
in section 2331), imprisoned not more than 8 years, or both. If the
matter relates to an offense under chapter 109A, 109B, 110, or 117, or
section 1591, then the term of imprisonment imposed under this
section shall be not more than 8 years.
28 US 2241(a) provides:
Writs of habeas corpus may be granted by the Supreme Court, any
justice thereof, the district courts and any circuit judge within their
respective jurisdictions. The order of a circuit judge shall be entered in
the records of the district court of the district wherein the restraint
complained of is had.

3

28 USC 2253(c) provides:
(1) Unless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court of
appeals from—
(A) the final order in a habeas corpus proceeding in which
the detention complained of arises out of process issued by
a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a substantial
showing of the denial of a constitutional right.
(3) The certificate of appealability under paragraph (1)
shall indicate which specific issue or issues satisfy the
showing required by paragraph (2).
28 USC 2255(a) provides:
A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed
in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to
impose such sentence, or that the sentence was in excess
of the maximum authorized by law, or is otherwise
subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the
sentence.

STATEMENT OF THE CASE AND FACTS
Petitioner worked for United States Immigration and Citizenship Services at
the San Francisco Office as an Immigration Officer from May 2004 to December
2015. An indictment against Petitioner was filed in November 2015, Petitioner was
placed on suspension in December 2015, and subsequently fired in December 2017.

4

i

Petitioner took out a bank loan in August 2006 to help wife to start a massage
therapy business. In March 2008, Petitioner’s wife and 2 other girls were arrested
for alleged solicitation of prostitution. Wife was never convicted and the other 2
girls were never prosecuted. Wife received 6 months diversion in June 2009, but
diversion was terminated early in November 2009, after only 5 months, and wife
became a naturalized U.S. citizen in June 2010.
Agent John Henderson and Agent Richard Fuentes from the Office of Inspector
General came to interview Petitioner in August 2009. There was no video tape,
no audio tape, no Q&A, no signed sworn statement by Petitioner for the
interview. Agents claimed that Petitioner denied having provided start-up funding
to wife’s business. This gave rise to Count 1 of the indictment. In October 2013, 2
different agents came to interview Petitioner regarding an unauthorized database
search that Petitioner had performed in March 2009, 4 years and 7 months
earlier. Agents allege that Petitioner had denied having run those searches during
the October 2013 interview. This alleged denial was the basis for Count 2 of the
indictment.
Petitioner was indicted in November 2015 under 2 counts of 18 USC
1001. Count 1 was for alleged false statement made to agents during the August
2009 interview denying having provided start-up funding to wife back in
August 2006. Count 2 was for allegedly denying running unauthorized searches in
the government data base in March 2009. Petitioner was convicted of both counts
in October 2016. A Rule 29 motion was filed and the district court acquitted
5

Petitioner on count 2 but upheld count 1. An appeal was filed with the 9th Circuit
but was denied in June 2018. A Petition for Writ of Certiorari was filed and denied
by the U.S. Supreme Court in February 2019. A 2255 motion was filed with the
District Court in October 2018 but was denied in August 2019 and District Court
also refused to issue a certificate of appeal ability. A request for certificate of
appealability was filed with the 9th Circuit in October 2019 but was denied on
December 14, 2020. A motion to reconsider the denial was filed with the 9th Circuit
and was denied on January 14, 2021.
THE CERTIFICATE OF APPEALABILITY STANDARD
To obtain a certificate of appeal ability, a habeas petitioner must make a
“substantial showing of the denial of a constitutional right” 28 U.S.C.
2253(c)(2). He satisfies this standard by demonstrating that jurists of reason could
disagree with the District Court’s resolution of his case or that the issues presented
were adequate to deserve encouragement to proceed further. He need not convince
a judge, or, for that matter, three judges, that he will prevail, but must demonstrate
that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong. Miller-El v. Cockrell, 537 US 322.

REASONS FOR GRANTING THE PETITION
The Ninth Circuit’s denial of Petitioner’s request for a certificate of appeal
ability (COA) was unreasonable and conflicts with this Court’s decision in Miller-El
v. Cockrell, 537 U.S. 322, 337 (2003), because Petitioner has made the requisite
showing for a COA to issue.
6

This Court should grant the writ because there was insufficient evidence to
support the conviction and Petitioner was also denied effective assistance of
counsel. The issue of insufficient evidence and ineffective assistance of counsel are
intertwined and will be discussed below.
DISCUSSION
In 1970, the Court held in In re Winship, 397 U.S. 358, 364 (1970), that the
Due Process of Law Clauses of the Fifth and Fourteenth Amendments protect the
accused against conviction except upon proof beyond a reasonable doubt of every
fact necessary to constitute the crime with which he is charged.
A conviction under 18 USC 1001 requires a defendant to have actually made a
false statement, the statement must be made with intent, and the statement must
be material. In this case, trial testimonies by both Agents do not show the funding
question was ever asked, do not show Petitioner ever made a false denial, do not
show there was intent, and do not show the alleged false statement was material.
I. (A) IMPEACHED TRIAL TESTIMONIES OF AGENT JOHN HENDERSON
AND RICHARD FUENTES DO NOT SHOW START-UP FUNDING
QUESTION WAS EVER ASKED.
• It must first be pointed out that the Primary Job of Agent
John Henderson at the interview was to Take Notes,
besides Being a Witness. (TR 299, Lines 2-10).

7

• During trial, Agent John Henderson and Agent Richard
Fuentes gave conflicting testimonies and contradicted each
other.
• Agent Fuentes contends he asked Petitioner several times
about funding (TR 273, Lines 13-15).
• Agent Fuentes claimed that Petitioner’s answers about funding
“varied” each time (TR 273, lines 19-21).
• Agent Henderson first said that Agent Fuentes asked Petitioner the
funding question several times (TR 289, Lines 14-16 ).
• Agent Henderson then impeached both himself and Agent Fuentes
by saying he ONLY REMEMBERED Agent Fuentes ASKING THE
FUNDING QUESTION 1 TIME (TR 316, Lines 15-19).
• Agent Henderson said he DID NOT KNOW EXACTLY WHAT
FUNDING QUESTION Agent Richard Fuentes asked because HE
DID NOT RECORD the questions (TR 316, Lines 20-22).
I. IB1 AGENT HENDERSON’S TESTIMONY SHOWS PETITIONER NEVER
MADE A FALSE STATEMENT.
The government’s allegation that Petitioner made false statement was actually
Agent Henderson’s own Assumption/Speculation after hearing Petitioner’s
response of not sharing money with wife.
• And in your handwritten notes, if you can turn to the second page,
that’s Government Exhibit 55, the bottom Bates Number says

8

JL001014. (TR 302, Lines 4-6). And the entirety of the
statement reads “Not Fund Any of It”; is that right? “That’s
correct”. (TR 302, Lines 11-13).
• Did you see any comments there about Mr. Lee’s funding of the
business? “Yeah, I would refer to the last two digits, 16, “not share
money, no income, her money - “her own money “I am sorry.” (TR.
303, Lines 6-10).
• It doesn’t say anything about whether he funded her business;
correct? “I think the “not share money would be included in
that”. (TR 303, Lines 14-16).
•

How so? “If they are not sharing money, that means he is
not sharing the money, “GIVING HER CAPITAL TO
IMPROVE THE BUSINESS, OPEN IT, or SOMETHING
LIKE THAT.” (TR 303, Lines 17-20).

•

So what you just said is a “SPECULATION” about what that
note might have meant? TR 303, Lines 24-25. “It was about
money. That’s it.” (TR 304, Line 1).

I. (C) PETITIONER’S ALLEGED FALSE DENIAL WAS NOT MATERIAL
As the Supreme Court has counseled, “in deciding whether a statement is
‘material requires the determination of at least two subsidiary questions of purely
historical fact; (a) ‘what statement was made?’ and (b) ‘what decision was the

9

agency trying to make?” United states v. Gaudin, 515 U.S. 506,509 (1995) (quoting
Kungys v. United States, 485 U.S. 759, 770 (1988)).
The funding question was already MOOT/IRRELEVANT at the August
2009 interview. The Agent argues that had Petitioner disclosed that he had
provided a loan, this would have made the Agent’s job easier. TR 239. This
argument lacks merits.
Both Agent Fuentes and Agent Henderson were investigating (1) “if Mr. Lee
had anything to do with any IMMIGRATION BENEFITS to the individuals that
were arrested there", TR 188, Lines 24-25, TR 189, Line 1, and (2) “if there had any
type of HUMAN TRAFFICKING, what his role in that was", TR 189, Lines 2-3,
and (3) “if he was getting outside gain or some type of monetary, I guess you’d say
compensation for his role in that.” TR 189, Lines 4-5. “That there might have been
an OUTSIDE INCOME and that was mostly what I WAS FOCUSING ON.” TR
259, Lines 1-2.
Therefore, going out of their way in subpoenaing Petitioner’s financial
records is a natural and necessary consequence, since outside income was
what the agents were focusing on. Any diligent and competent agents would have
done what the agents in this case did, Petitioner’s alleged false denial irrelevant.

I. (PI THE GOVERNMENT NEVER PROVED THE ELEMENT OF INTENT.
The government never proved the element of intent. How can the government
argue that there was intent when evidence does not even show Agents asking the
relevant question, and no evidence of Petitioner making a false denial?
10

Petitioner was denied effective assistance of counsel under the 6th Amendment.
In Strickland v. Washington, 466 U.S. 668 (1984), the Court held that reversal of a
conviction requires that the defendant show first, that counsel's performance was
deficient and, second, that the deficient performance prejudiced the defense so as to
deprive the defendant of a fair trial.
II. (A) DEFENSE COUNSEL’S PERFORMANCE WAS DEFICIENT
Defense counsel had initially requested a unanimity jury instruction but later
agreed with the government on the wording of the jury instruction. Defense counsel
should not have agreed with the instruction because there is no evidence to support
it. No reasonable and objective attorney would have agreed to such a jury
instruction when presented with illusory, contradictory, arbitrary evidence.
Defense counsel was deficient in that she did not insist on an unanimity
jury instruction nor propose an alternative jury instruction. The government
argues that defense counsel’s decision was due to “strategic” reasons. This
argument does not help the government. On the contrary, it only reinforces
defendant’s claim that defense counsel was deficient. Defense counsel’s
acquiescence cannot be said to be strategic. All strategic choices are calculated to
bring beneficial results. An unanimity jury instruction would certainly make it
much harder for the government to prove its case, especially when some the alleged
funding questions were compound questions containing both funding and non­
funding issues. Any reasonable and objective attorney would have insisted on an
unanimity jury instruction when confronted with the following testimonies:

ll

Agent Fuentes gave 5 versions of the questions he asked:
• Version 1, “I asked him, I said, “Well, did you loan her OR give
her any money to start this business?” (TR 236, Lines 22-24);
(emphasis added);
• Version 2, “I asked him if he had actually funded OR assisted
with that business.” (TR.237, Line 8-9); (emphasis added);
• Version 2 Rebuttal. The key word here is “OR”. Petitioner had
admitted that he did assist with the business, that is, translating
documents, TR 253, Lanes 9-11; Lines 20-22. Therefore, where is
the denial?
• Version 3. “In a roundabout way, I asked if he had ever
PROVIDED ASSISTANCE and he kept denying it.” (TR 238,
Lines 6-7); (emphasis added);
• Version 3 Rebuttal. Again, Petitioner had admitted that he
provided assistance to wife, that is, translating documents. TR
253, Lines 9-11; Lines 20-22. Again, where is the denial?
• Version 4, “I asked him if he had ever given money to his wife to
fund this business, to start it up.” (TR 260, Lines 9-10); (emphasis
added);
• Version 5. And you cannot recall, sitting here today, the terminology
of any follow-up questions relating to the funding of the business,
correct? “Correct”. You believe you may have asked follow-up
12

questions? “Pretty sure I did because I kept asking similar questions
around -- ASSOCIATED with the business or any ASSISTANCE he
may have given the business or his ASSOCIATION with the
business” (TR 261, Lines 20-25, TR. 262, Lines 1-3); (emphasis added).
• Version 5 Rebuttal. Agent Fuentes’ claim that he kept asking
similar questions is erroneous. First, Funding, Association,
Assistance, are NOT SIMILAR at all. They are 3 separate and
distinct topics. Second, Association, Petitioner correctly gave a
denial answer such as his name was not on the lease of wife's shop,
TR 262, Lines 10-14, he did not do any hiring of wife's employees,
TR 262, Lines 15-17, his name was not on shop’s utilities, TR 262,
Lines 18-21, and he visited wife’s shop infrequently, TR 262, Lines,
22-25. Third, Assistance, Petitioner correctly admitted to having
translated documents for wife because her English was poor, TR
253, Lines 9-11, Lines 20-22.
• Version 6, On Re-Cross, defense counsel asked agent Fuentes for
clarification: “to the best of your recollection, the precise
terminology of that question was “Did you give your wife any
money to fund the business?” TR 277, Lines 11-13.
• When given this wording, Agent Fuentes did not confirm it to be
true. Rather, he answered with a different wording of the question:

13

“Did you assist her with funding, yes.” TR 277, Line 14; (emphasis
added).
• Version 7, When asked which of those two different wordings he
asked Mr. Lee, Agent Fuentes again changed his answer to “Give
her any money.” TR 277, Lines 15-21; (emphasis added).
• Version 8, given by Agent Henderson on Direct; “He asked if John
Lee had any involvement in contributing funds to the massage parlor
business”. TR 289, Lines 8-9; (emphasis added).
Defense counsel should not have agreed with the instruction because the
versions were different, ranging from funding, loans, gift, money, assistance, or
association. Some questions had 2 sub-questions, and a “no” answer would be
literally true for one, while a “no” answer would be a false statement for the
other. For example, Version 1 and Version 5.
The jury was supposed to first determine what was asked and what was
answered before convicting Petitioner of making a false statement. This is true
because in In re Winship, 397 U.S. 358, 364 (1970), the United States Supreme
Court held that the Due Process Clause of the Fourteenth Amendment requires that
the prosecution prove by beyond a reasonable doubt every fact necessary to
establish each element of the crimes charged. For Petitioner, the prosecution did
not do that because his own lawyer, by stipulation, reconciled the 8 different and
competing versions into 1 statement presented to the jury as fact, as settled, and as
supported by evidence.
14

The District Court Judge argued that the trial attorney’s action was not
beneath the standard of what a reasonable attorney would do. But having
ambiguity in a false statement case is the most critical and most successful defense
to that charge. There is no showing that taking away your client’s primary defense
by stipulation is what a reasonable attorney would do. “The government cannot
sustain a materially false statement charge based merely on the government
agent’s interpretation of what the individual meant - there must be clear evidence
of what was said and a full appreciation of the context in which the statement was
made.” United States v. Jiang, 476 F.3d 1026, 1030 (9th Cir. 2007).
II. (B) PETITIONER SUFFERED PREJUDICE.
Petitioner suffered prejudice because he was wrongfully convicted as a result of
the jury stipulation. In this case, there is a reasonable probability, but for counsel’s
unprofessional error, the result of the proceeding would have been
different. Strickland v. Washington. 466 U.S. 668, 687-688, 694 (1984). The
government argues that an unanimity jury instruction was not necessary since all
versions of Agent Fuentes questions dealing with funding were markedly
similar. This argument is erroneous. The different versions by Agent Fuentes
were Not Markedly Similar at all as shown by rebuttals to Version 2,
Version 3, Version 5, above.
The District Judge also reasoned in her 2255 Motion denial that the wrongful
stipulation claim was already raised and decided on appeal in the Ninth
Circuit. This is not true. The Ninth Circuit noted that it had to review this issue by
15

the very high CLEAR ERROR STANDARD because Mr. Lee “failed to
preserve his objection to the district court’s failure to give a specific unanimity
instruction for appeal, by stipulating to the false statement he allegedly made...
“United States v. Ching En Lee, 726 F. App’x 589, 590 (9th Cir. 2018). At trial, it is
that stipulation that took away the prosecution’s burden to prove beyond a
reasonable doubt every element of a crime. On appeal, it was that stipulation
that blocked the Ninth Circuit to consider that error on appeal.
If the jury had been asked to grapple with which of the 8 versions of the
statement were asked and answered, it very well could have ended the case like
Jiang - unable to even know the very question to which petitioner supposedly said
no. Instead, the trial attorney’s stipulation took away the jury’s task which resulted
in Petitioner’s conviction.
It is long established that the jury must agree to the same facts when finding
that a person committed a crime. “In criminal cases this requirement of unanimity
extends to all issues - character or degree of crime, guilt and punishment - which
are left to the jury. A verdict embodies in a single finding the conclusions by the
jury upon all the questions submitted to it.” Andres v. United States, 333 U.S. 740,
748 (1948). “We think the proper inquiry in such a case is whether there is a
reasonable likelihood that the jury has applied the challenged instruction in a way
that prevents the consideration of constitutionally relevant evidence.” Boyde v.
California, 494 U.S. 370, 380 (1990).

16

The District Court should have realized that it is the jury’s job to figure out
what was said in the trial testimony. The trial attorney cannot stipulate to
that. And when the trial attorney tried to do so, the judge should have realized that
she cannot instruct the jury about what the evidence did or did not show. The
judge’s action of giving an instruction that takes away from the jury’s job to find
facts violated Petitioner’s constitutional right to a fair trial, to a trial where the
prosecution has to prove every element of crime, and to a trial where all 12
jurors have to agree on what was asked - or what was not.
ail). PETITIONER’S 2255 MOTION IS NOT BARRED BECAUSE IT IS AN
EXCEPTION TO THE LAW OF THE CASE DOCTRINE BECAUSE THE
CONVICTION IS CLEARLY ERRONEOUS AND ITS ENFORCEMENT
WOULD WORK A MANIFEST INJUSTICE.
The bar against re-litigating issues in a section 2255 proceeding that were
already raised and rejected on direct appeal is an application of the law of the case
doctrine. See United States v. Jingles, 702 F.3d 494, 498 (9th Cir. 2012) (“A
collateral attack is the ‘same case’ as the direct appeal proceedings for purposes of
the law of the case doctrine”). A court may depart from the law of the case if, (1) the
decision is clearly erroneous and its enforcement would work a manifest injustice,
(2) intervening controlling authority makes reconsideration appropriate, or (3)
substantially different evidence was adduced in a subsequent proceeding. Gonzalez
v. Arizona, 677 F.3d 383, 390 n.4 (9th Cir.2012) (en banc) (internal quotation marks
and citation omitted).

17

In this case, the District Court and the Ninth Circuit erred in denying the 2255
motion and a certificate of appealability.
The District Court erroneously argued 2 points in FOOTNOTE 3 of its
decision. First, the court argues that Petitioner is now raising the argument, that
is, agents never asked the funding question, that was arguably not raised on direct
appeal, hence, he cannot raise it now in a 2255 motion. This argument is
erroneous. Petitioner did raise the insufficient evidence argument on direct
appeal. The point of citing testimony to show that the agents never asked the
funding question is to PROVIDE FACTUAL PROOF IN SUPPORT of the
insufficient evidence argument, argument which was raised on direct appeal. It is
well settled that a motion under 2255 is properly denied where it states “only bald
legal conclusions with no supporting factual allegations.” Sanders v. United States,
373 U.S. 1, 1963. Therefore, Petitioner is not raising any new argument at all,
but merely citing facts as required by case law.
Second, the District Court argues that Petitioner’s argument that “the agents
never asked the funding question” cannot be squared with the 9th Circuit’s finding
that there was considerable evidence presented at trial to support the parties’
stipulation regarding the false statement petitioner allegedly made. The 9th
Circuit was apparently misled by both Agents’ pre-impeacbed testimonies,
that is, the Agents claimed they asked Petitioner the funding question multiple
times and Petitioner gave false answers multiple times, when in fact, this was not

18

the case. The 9th Circuit must have overlooked record evidence that Petitioner
is citing now.
Petitioner has shown that his conviction is not supported by evidence, is clearly
erroneous, and will work a manifest injustice if it is enforced. Gonzalez v. Arizona,
677 F.3d 383, 390 n.4 (9th Cir.2012) (en banc) cited above. And his claim deserves
“encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 337 (2003),
CONCLUSION
For the foregoing reasons, Petitioner respectfully requests a Certificate of
Appealability be granted.
DATED this 8th Day of March, 2021.

Respectfully submitted,

Petitioner

19

